U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

City of Portland, Oregon, et al. v. Federal Communication
Commission, et al., S.Ct. No. 20-1354

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 22,
2021, and placed on the docket on March 25, 2021. The government’s response is due on April
26, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1354
CITY OF PORTLAND, OREGON, ET AL.
FEDERAL COMMUNICATIONS COMMISSION, ET
AL.

JOHN J. KORZEN
WAKE FOREST UNIV. SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC
POST OFFICE BOX 7206
REYNOLDA STATION
WINSTON-SALEM, NC 27109
336-758-5832
KORZENJJ@WFU.EDU
TILLMAN L. LAY
SPIEGEL & MCDIARMID LLP
1875 EYE STREET, NW
SUITE 700
WASHINGTON, DC 20006
202-879-4000
TIM.LAY@SPIEGELMCD.COM
JOSEPH VAN EATON
BEST BEST & KRIEGER LLP
1800 K STREET, NW
SUITE 725
WASHINGTON, DC 20006
202-785-0600
JOSEPH.VANEATON@BBKLAW.COM

